Audit Report




OIG-11-081
SAFETY AND SOUNDNESS: Material Loss Review of ebank
July 13, 2011




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

    Causes of ebank’s Failure .............................................................................      2
      ebank Incurred Significant Losses Since Inception .......................................                  3
      The Board and Management Failed to Establish a Profitable Business Strategy                                4
      The Board and Management Did Not Implement Effective Controls, Credit
         Administration, and Risk Management Practices.....................................                      5

    OTS’s Supervision of ebank .......................................................................... 5
      OTS Repeatedly Identified Problems with Underwriting, Credit Administration,
         and Risk Management Practices ........................................................... 7
      OTS Delayed Taking Formal Enforcement Action ........................................ 8
      OTS Appropriately Used Prompt Corrective Action ...................................... 10
      OTS’s Internal Review of ebank ................................................................ 11

    Recommendations ....................................................................................... 12

Appendices

    Appendix    1:      Objectives, Scope, and Methodology ......................................              14
    Appendix    2:      Background..........................................................................   17
    Appendix    3:      Management Response .........................................................          19
    Appendix    4:      Major Contributors to This Report ...........................................          21
    Appendix    5:      Report Distribution. ...............................................................   22

Abbreviations

    ALLL                allowance for loan and lease losses
    C&D order           cease and desist order
    EFS                 ebank Financial Services, Inc.
    FDIC                Federal Deposit Insurance Corporation
    FSB                 Federal Savings Bank
    HELOC               home equity lines of credit
    MLR                 material loss review
    MRBA                matter requiring board attention
    OIG                 Office of Inspector General
    OTS                 Office of Thrift Supervision
    PCA                 prompt corrective action
    ROE                 report of examination
    TFR                 thrift financial report



                        Material Loss Review of ebank (OIG-11-081)                                      Page i
This page intentionally left blank.
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                       July 13, 2011

                       John E. Bowman, Acting Director
                       Office of Thrift Supervision

                       This report presents the results of our material loss review (MLR) of
                       the failure of ebank of Atlanta, Georgia, and of the Office of Thrift
                       Supervision’s (OTS) supervision of the institution. OTS closed
                       ebank and appointed the Federal Deposit Insurance Corporation
                       (FDIC) as receiver on August 21, 2009. This review was mandated
                       by section 38(k) of the Federal Deposit Insurance Act because of
                       the magnitude of ebank’s estimated loss to the Deposit Insurance
                       Fund. 1 As of March 31, 2011, FDIC estimated the loss to be
                       $46.3 million. FDIC also estimated that ebank’s failure would result
                       in a loss of approximately $104,000 to its Transaction Account
                       Guarantee Program. 2

                       Our objectives were to determine the causes of ebank’s failure;
                       assess OTS’s supervision of the thrift, including implementation of
                       the prompt corrective action (PCA) provisions of section 38; and
                       make recommendations for preventing such a loss in the future. To
                       accomplish these objectives, we reviewed the supervisory files and
                       interviewed OTS and FDIC officials. We conducted our fieldwork
                       from December 2009 through March 2010. Appendix 1 contains a
                       more detailed description of our review objectives, scope, and
                       methodology. Appendix 2 contains background information on
                       ebank’s history and OTS’s assessment fees and examination hours.



1
  At the time of ebank’s failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) now
defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the
Treasury Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Pages/by-date-2011.aspx.


                       Material Loss Review of ebank (OIG-11-081)                                Page 1
                     In brief, ebank failed because of significant losses in its land and
                     construction loan portfolios, which depleted the thrift’s capital and
                     rendered the thrift insolvent. ebank incurred losses in 9 of its 12
                     years of existence due largely to failed business strategies and
                     ineffective controls, credit administration, and risk management
                     practices.

                     With respect to supervision, OTS examiners repeatedly identified
                     deficiencies in ebank’s underwriting, credit administration, and risk
                     management practices. OTS cited these deficiencies in reports of
                     examination (ROE) in 2003 and each year thereafter. Although OTS
                     addressed ebank’s deficiencies with corrective action
                     recommendations, matters requiring board attention (MRBA), and
                     both informal and formal enforcement actions, we believe OTS
                     should have taken formal enforcement action sooner. OTS
                     appropriately used PCA as ebank’s capital declined. Ultimately, the
                     PCA did not prevent ebank’s failure.

                     We are not making any new recommendations in this report. We
                     do, however, reaffirm a prior recommendation from our April 2008
                     report on NetBank, FSB, 3 that OTS ensure that formal enforcement
                     action is taken when circumstances warrant for thrifts with
                     CAMELS composite ratings of 3. In this regard, OTS revised its
                     enforcement guidance in July 2008 to clarify management
                     expectations and criteria for using informal and formal enforcement
                     actions. In a written response, OTS stated that, in addition to the
                     revised guidance, it has adopted enforcement procedures to ensure
                     compliance and consistency in actions taken among all OTS
                     Regions. OTS’s response is provided as Appendix 3. It should be
                     noted that pursuant to P.L. 111-203, the functions of OTS are to
                     transfer to other federal banking agencies on July 21, 2011.


Causes of ebank’s Failure
                     ebank failed because of significant losses in its land and
                     construction loan portfolios, which consisted of high-risk loans with
                     severe credit quality problems. ebank’s losses depleted capital and
                     rendered the thrift insolvent. ebank’s board and management tried

3
 OIG, Safety and Soundness: Material Loss Review of NetBank, FSB (OIG-08-032; issued Apr. 23,
2008).


                     Material Loss Review of ebank (OIG-11-081)                           Page 2
numerous business strategies to become profitable but were
unsuccessful. ebank’s board and management also failed to
implement effective underwriting, credit administration, and risk
management practices which allowed for an extremely high-risk
loan portfolio and ultimately contributed to ebank’s losses.

ebank Incurred Significant Losses Since Inception

ebank sustained losses in 9 of its 12 years of existence, ranging
from $421,000 in 2006 to $9.7 million in 2009. Figure 1 shows
ebank’s income and losses from 1998 through 2009.

Figure 1. ebank Net Income and Losses, 1998 Through 2009 (in millions)
      $2.0 
                                                $0.1  $0.1  $1.1 
        $‐
      $(2.0)   $(0.9)$(0.6)      $(0.7)$(0.8)                       $(0.4)
                           $(1.8)                                        $(2.2)
      $(4.0)
      $(6.0)
      $(8.0)
                                                                              $(7.1)
    $(10.0)
                                                                                   $(9.7)




Note: Losses for 2009 are cumulative through August 13, 2009.

Source: OIG analysis of OTS supervision memorandum and internal failed thrift review
        report on ebank.


Although ebank earned $1.3 million from 2003 through 2005,
these modest earnings were not sufficient to offset $24.3 million in
losses from other years. In 2005, ebank realized net income of
$1.1 million, when it decreased its allowance for loan and lease
losses (ALLL) provision from $1.1 million to about $300,000 and
received $237,000 in nonrecurring, noninterest income.
Management distributed $1 million of the net income in dividends
to its holding company in 2006.

From 2006 through 2009, ebank’s loan portfolio significantly
deteriorated because of poor asset quality, Atlanta’s slowing real



Material Loss Review of ebank (OIG-11-081)                                              Page 3
                       estate market, and the lack of adequate underwriting and controls.
                       By 2009, ebank’s condition had become unsafe, with about $14
                       million of the thrift’s nearly $93 million loan portfolio, or about 15
                       percent, past due. Much of the deterioration was concentrated in
                       land and construction loans. Weaknesses also existed in ebank’s
                       home equity lines of credit (HELOC) and first mortgage single-
                       family loans. The decline in asset quality required ebank in 2006 to
                       steadily increase its ALLL reserve, which reached nearly $5 million
                       by August 2009.

                       The Board and Management Failed to Establish a Profitable
                       Business Strategy

                       ebank’s board and management attempted numerous business
                       strategies to become profitable. 4 In 1999, contrary to its approved
                       business plan, the board and management pursued an Internet
                       banking strategy that was unsuccessful and costly. 5 In September
                       1999, OTS assessed $100,000 in civil money penalties 6 because
                       the changes to the thrift’s business plan were not approved as
                       required for de novo institutions. ebank then attempted to operate
                       as a traditional community bank, aggressively expanding its
                       commercial real estate, single-family construction, and land loan
                       portfolios. ebank did not, however, establish appropriate loan
                       limits, which resulted in concentrations of high-risk loans.

                       In 2002, ebank established a joint mortgage banking venture with a
                       mortgage company in Columbia, Maryland. OTS, which had
                       directed ebank to delay this action, determined the venture
                       constituted an inappropriate charter rental 7 and directed ebank to
                       end it. In 2006, ebank shifted from residential construction lending
                       to consumer and HELOC lending, establishing ebank Mortgage, a
                       subsidiary to market first and second mortgages. ebank Mortgage
                       was dissolved in 2008 after continual losses. OTS also found
                       growing problems with ebank’s HELOC portfolio, including loans




4
  ebank opened as Commerce Bank in August 1998 and was renamed ebank in October 1999.
5
  The high administrative costs from the failed Internet strategy affected ebank for a number of years.
6
  Formal enforcement actions used to impose fines for violations of laws or regulations.
7
  A contractual arrangement between an FDIC-insured institution and an uninsured institution where the
uninsured institution assumes little risk and reaps the benefits of the insured institutions charter.


                       Material Loss Review of ebank (OIG-11-081)                              Page 4
                      with loan-to-value ratios exceeding 90 percent and loans tied to
                      higher-risk jumbo mortgages. 8

                      According to OTS officials, ebank often took on different lending
                      products at inopportune times, in pursuit of higher earnings, and
                      did not tailor operations to fit available capital. ebank’s business
                      strategies resulted in high general and administrative expenses,
                      which, combined with declining net interest margins, offset core
                      income in all years except 2004 and 2005. These conditions
                      depleted ebank’s capital, despite periodic capital injections.

                      The Board and Management Did Not Implement Effective Controls,
                      Credit Administration, and Risk Management Practices

                      OTS’s examinations of ebank performed from 2003 through 2009
                      found that the board and management had failed to implement
                      effective controls, credit administration, and risk management
                      practices over the thrift’s lending. Despite repeated criticism by
                      OTS and assurances from the board and management, ebank’s
                      deficient lending practices went uncorrected. These deficiencies
                      resulted in a portfolio of poor quality, high-risk loans which
                      increased ebank’s losses.

                      OTS repeatedly criticized ebank for violating the loans-to-one-
                      borrower regulation, which limits the total loans and extensions of
                      credit to one borrower. Despite ebank’s assurances that the
                      violations would be corrected and controls implemented, OTS
                      identified violations from 2004 through 2009. OTS’s 2009 ROE
                      reported that not only had ebank failed to correct a previous
                      violation of the loans-to-one-borrower regulation, it made the
                      condition worse by acquiring three additional loans totaling
                      $900,000 made to the same borrower.


OTS’s Supervision of ebank

                      OTS conducted timely full-scope examinations of ebank and
                      provided oversight through limited scope field visits and off-site

8
 Jumbo mortgage loans pose a higher risk for lenders because they are usually originated for luxury
homes that are more difficult to sell at full price in the event of a default.


                      Material Loss Review of ebank (OIG-11-081)                               Page 5
                        monitoring. From 2003 through 2009, examiners repeatedly
                        identified problems with ebank’s underwriting, credit
                        administration, and risk management practices, and never assigned
                        ebank a CAMELS composite rating better than a 3, meaning that
                        OTS always had some degree of supervisory concern with the
                        institution. Some uncorrected deficiencies went back to 2000
                        when a new management team took over ebank. Through 2006,
                        OTS addressed ebank’s deficiencies with corrective action
                        recommendations, MRBAs, and informal enforcement actions. OTS
                        took formal enforcement action in 2007 and 2009. We believe
                        OTS should have taken formal enforcement action years earlier.

                        Table 1 summarizes the results of OTS’s safety and soundness
                        examinations of ebank from 2003 through 2009.

            Table 1: Summary of OTS’s Safety and Soundness Examinations of and
                             Enforcement Actions Against ebank
                                                  Examination Results
Examination                                           No. of
start date   Total assets    CAMELS       No. of      recommendations/    Enforcement
and type     (in $ millions) rating       MRBAs       corrective actions  actions
4/30/2003       $96.8             3/333323       2            11         None
(full-scope)
7/13/2004       $112.2            3/233323       3            8          Board resolution
(full-scope)                                                             (informal
                                                                         enforcement
                                                                         action)
                                                                         12/20/2004
10/11/2005      $147.0            3/233221       4            11         Notice of
(full-scope)                                                             deficiency
                                                                         (informal
                                                                         enforcement
                                                                         action)
                                                                         3/9/2006 (see
                                                                         Note)
12/29/2006      $138.5            3/233322       3            9          Cease and desist
(full-scope)                                                             order (formal
                                                                         enforcement
                                                                         action)
                                                                         6/4/2007
12/10/2007      N/A               N/A            None         None       None
(field visit)
3/3/2008        $141.7            4/444432       7            11         Cease and desist
(full-scope)                                                             orders (ebank
                                                                         Financial
                                                                         Services, and



                        Material Loss Review of ebank (OIG-11-081)                      Page 6
                Table 1: Summary of OTS’s Safety and Soundness Examinations of and
                                 Enforcement Actions Against ebank
                                                      Examination Results
    Examination                                           No. of
    start date   Total assets    CAMELS       No. of      recommendations/    Enforcement
    and type     (in $ millions) rating       MRBAs       corrective actions  actions
                                                                                ebank)
                                                                                2/27/2009

                                                                                Prompt corrective
                                                                                action directive
                                                                                6/30/2009
 10/6/2008     N/A               N/A            None        None                None
 (field visit)
 7/2/2009      N/A               5/554543       None        None                 None
 (off-site
 review)
 7/6/2009      $144.7            5/554544       5           7                    None
 (full-scope)
Note: The notice of deficiency directed ebank to submit a safety and soundness compliance plan.

Source: OTS ROEs and enforcement actions.

                        OTS Repeatedly Identified Problems with Underwriting, Credit
                        Administration, and Risk Management Practices

                        OTS repeatedly identified problems with ebank’s underwriting,
                        credit administration, and risk management practices. These
                        problems were often found to be uncorrected from prior
                        examinations and were reflected in the thrift’s CAMELS composite
                        and management component ratings. OTS’s 2003 examination was
                        the third consecutive time that OTS assigned ebank a composite
                        rating of 3 and the fourth consecutive time that ebank’s
                        management was assigned a component rating of 3. OTS
                        continued to assign ebank these same ratings for the next three
                        full-scope examinations, despite uncorrected problems.

                        At the time of the 2003 examination, OTS guidance stated that
                        formal enforcement action was presumed for thrifts with repeated
                        composite ratings of 3, weak management, or a board and
                        management unwilling or unable to take appropriate corrective
                        measures. 9 Enforcement action, however, was not taken following

9
 OTS Regulatory Handbook, Section 370, Enforcement Actions (June 2003). OTS Examiner Handbook,
Section 080, Administration (July 2008) superseded Section 370, requiring that formal enforcement


                        Material Loss Review of ebank (OIG-11-081)                            Page 7
                       the 2003 examination, even though ebank’s condition had declined
                       to adequately capitalized as of June 30, 2003. The OTS
                       Supervisory Action Committee waived enforcement action on
                       August 14, 2003. According to the memorandum recommending
                       the waiver, OTS supervisory officials believed that ebank’s
                       condition, though troubled, was not deteriorating rapidly enough to
                       warrant formal action. OTS officials also believed ebank’s
                       compliance with an OTS instruction to close a Maryland loan
                       production office and its acknowledgement that new capital was
                       needed had demonstrated ebank’s willingness to take corrective
                       action. ebank was to obtain new capital and be well-capitalized by
                       September 30, 2003, and raise substantial capital or sell the thrift
                       by June 30, 2004.

                       Although ebank was well-capitalized on September 30, 2003, the
                       thrift once again fell to adequately capitalized on December 31,
                       2003. OTS informed ebank management that thrifts with repeated
                       CAMELS composite 3 ratings normally call for enforcement action
                       and that it was more difficult to defer enforcement action when the
                       institution is adequately capitalized. Capital infusions totaling $3
                       million from ebank’s holding company, ebank Financial Services,
                       Inc. (EFS), during the first six months of 2004 allowed the thrift to
                       restore its well-capitalized status.

                       OTS Delayed Taking Formal Enforcement Action

                       Through 2006, OTS attempted to address ebank’s problems with
                       corrective action recommendations, MRBAs, and two informal
                       enforcement actions—a board resolution in 2004 and a notice of
                       deficiency with directive for submission of a safety and soundness
                       compliance plan 10 in 2006. OTS imposed the requirement for a
                       board resolution following the 2004 examination when examiners
                       found that ebank had still not established effective loan or
                       concentration limits and had failed to correct previously identified
                       weaknesses in its loan administration practices. OTS’s 2005


action also be considered when a thrift’s management is assigned a rating of 3 or below or the thrift is
not in compliance with prior commitments to take corrective action.
10
   An informal enforcement action used to notify a thrift of its failure to satisfy safety and soundness
standards set forth in Appendix A to 12 C.F.R. Part 570, and requiring a safety and soundness
compliance plan specifying corrective measures to be taken.



                       Material Loss Review of ebank (OIG-11-081)                                Page 8
                     examination found that, while ebank had established limits on high-
                     risk loans, it failed to comply with the board resolution and fully
                     correct problems identified in the 2004 examination.
                     Notwithstanding this, OTS assigned ebank a composite rating of 3
                     for the fifth consecutive examination and issued a second informal
                     enforcement action, a notice of deficiency in March 2006, which
                     directed ebank to submit a safety and soundness compliance plan
                     by April 9, 2006.

                     In June 2007, OTS issued its first formal enforcement action, a
                     cease and desist (C&D) order, to address ebank’s problems and its
                     failure to comply with prior enforcement actions. In June 2008,
                     OTS found that ebank’s condition had continued to deteriorate,
                     assigned a composite rating of 4, and determined that a new C&D
                     order was needed requiring ebank to hold increased capital. OTS
                     also decided to issue a C&D order to ebank’s holding company,
                     ebank Financial Services, Inc. (EFS). However, OTS did not issue
                     these C&D orders until February 2009.

                     According to OTS officials, the C&D orders were delayed for
                     several reasons. 11 First, OTS needed to have the ebank and EFS
                     boards returned to their previous composition because the boards
                     had been completely restructured on July 3, 2008, without OTS
                     approval (OTS approval was required as ebank and EFS had been
                     designated troubled institutions). The ebank and EFS boards were
                     returned to their previous composition on July 25, 2008, and
                     October 27, 2008, respectively. Second, it took some time for OTS
                     legal staff to draft and finalize the associated documents. This
                     delay was due, we were told, to legal staff spending a lot of their
                     time on applications received under the Troubled Asset Relief
                     Program.

                     OTS examiners defended the supervisory approach they used for
                     ebank. They stated that the thrift was able to obtain capital when
                     needed and, for the most part, remained well-capitalized. The
                     examiners also stated that in some cases they believed that
                     problems had been corrected by ebank management but
                     subsequent examinations disclosed that management’s efforts
                     were ineffective and failed to fully correct the deficiencies. ebank’s

11
  OTS policy directives OTS New Directions 09-11 (May 2009) and 09-11a (August 2009) now require
formal enforcement actions be issued and effective within 60 days of approval.


                     Material Loss Review of ebank (OIG-11-081)                         Page 9
inability to correct problems was identified and reflected in its
CAMELS ratings.

Although a waiver of enforcement action was approved by the
Supervisory Action Committee, we believe OTS had sufficient
cause to take formal enforcement action in 2003 when repeat
problems were identified, management was considered weak, and
the thrift was assigned its third consecutive composite 3 rating.
ebank’s board and management were never strong, often relied on
capital injections to maintain capital levels, and were unable or
unwilling to correct deficiencies. ebank’s ability to restore its well-
capitalized position in 2004 was based on capital infusions more
than corrective measures taken by the board and management. The
memorandum recommending waiver of enforcement action stated
that ebank had been unable to attract and retain sufficient capital
to safely grow the asset base in order to overcome the high
overhead expenses. Furthermore, OTS documentation supporting
the 2007 C&D order concluded that many of ebank’s deficiencies
were the same as when a new management team took over ebank
in 2000, confirming that some deficiencies were never corrected
by the board and management.

OTS Appropriately Used Prompt Corrective Action

The purpose of PCA is to resolve the problems of insured
depository institutions at the point at which there is the least
possible long-term cost to the Deposit Insurance Fund. PCA
requires federal banking agencies to take action when an
institution’s capital drops to undercapitalized or below. PCA also
gives regulators flexibility to supervise institutions based on criteria
other than capital levels to help reduce deposit insurance losses
caused by unsafe and unsound practices. Furthermore, the Federal
Deposit Insurance Act prescribes additional supervisory restrictions
applicable to less than well-capitalized (e.g., adequately capitalized)
thrifts before PCA is mandated.

OTS took the following supervisory and PCA actions as ebank’s
capital levels fell:

    • When ebank fell to adequately capitalized based on the
      March 31, 2008, thrift financial report (TFR), OTS issued a


Material Loss Review of ebank (OIG-11-081)                      Page 10
                             troubled condition letter on May 1, 2008, notifying ebank of
                             certain supervisory restrictions and of a downgrade to the
                             thrift’s CAMELS composite rating.

                          • On February 10, 2009, OTS notified ebank of mandatory PCA
                            restrictions when the thrift fell to undercapitalized based on
                            the TFR for December 31, 2008. 12 OTS required ebank’s
                            management to submit a capital restoration plan by
                            March 16, 2009, and adhere to PCA mandated restrictions.
                            OTS disapproved ebank’s capital restoration plan on May 26,
                            2009, and notified the thrift that it was significantly
                            undercapitalized.

                          • OTS issued a prompt corrective action directive 13 to ebank on
                            June 30, 2009; notified ebank that it was critically
                            undercapitalized on August 3, 2009; and closed the thrift on
                            August 21, 2009.

                      We concluded that OTS took PCA in accordance with section
                      38(k). However, those actions were unsuccessful in preventing
                      ebank’s failure.

                      OTS’s Internal Review of ebank

                      In accordance with its policy, OTS completed an internal review of
                      the ebank failure and issued a report in March 2010 which stated
                      that ebank’s failure resulted primarily from credit losses within the
                      thrift’s construction and land loan portfolios, along with the lack of
                      a clear, consistent, and effective business strategy. ebank’s high
                      general and administrative expenses hindered the thrift’s
                      profitability even before asset quality problems surfaced. ebank’s
                      losses depleted capital and rendered the thrift insolvent. The
                      internal review also concluded that more timely and stronger
                      enforcement action by OTS should have been taken to address
                      repeat deficiencies and more restrictive concentration limits should


12
   ebank had fallen to undercapitalized 6 months earlier, based on the June 30, 2008 TFR. OTS did not
take action because ebank obtained additional capital and was no longer considered undercapitalized
when the thrift’s TFR was filed on July 30, 2008.
13
   A formal enforcement action establishing a capital-based supervisory scheme with increasingly
stringent restrictions associated with declining capital levels.


                      Material Loss Review of ebank (OIG-11-081)                             Page 11
                      have been established to specifically address higher-risk loan
                      products.

Recommendations
                      We are not making any new recommendations in this report, but
                      are reaffirming a recommendation made in a previous MLR of an
                      OTS-regulated thrift.

                      Specifically, in our April 2008 MLR report on NetBank, FSB, we
                      reported that formal enforcement action should have been taken
                      sooner. We recommended that the Director of OTS re-emphasize to
                      examiners that for 3-rated thrifts, formal enforcement action is
                      presumed warranted when certain circumstances identified in
                      OTS’s examination handbook are met. The failure of ebank was
                      another case where a stronger supervisory response by OTS was
                      warranted earlier. The OTS internal review of ebank’s failure
                      reached a similar conclusion.

                      In response to the NetBank FSB MLR report, OTS revised its
                      examination handbook with respect to enforcement actions. 14 The
                      revised guidance clarified management’s expectations, specified
                      that informal enforcement action is presumed for thrifts with a
                      composite rating of 3, and that formal enforcement action be
                      considered if one or more compelling factors are identified, such as
                      poor management. We did not, as part of this MLR of ebank,
                      assess whether this guidance was implemented in an effective
                      manner.




14
  OTS Regulatory Bulletin 37-23, July 18, 2008, implemented changes to enforcement action
guidelines in the OTS Examination Handbook. The bulletin replaced Section 370, Enforcement Actions,
with updated guidance included in Section 080 of the Examination Handbook.


                      Material Loss Review of ebank (OIG-11-081)                           Page 12
                                 ******

We would like to extend our appreciation to OTS for the
cooperation and courtesies extended to our staff during the audit.
If you have any questions, please contact me at (617) 223-8640 or
Kenneth Dion, Audit Manager, at (617) 223-8641. Major
contributors to this report are listed in appendix 4.


/s/
Donald P. Benson
Audit Director




Material Loss Review of ebank (OIG-11-081)                Page 13
                       Appendix 1
                       Objectives, Scope, and Methodology




                       We conducted this material loss review of ebank, of Atlanta,
                       Georgia, in response to our mandate under section 38(k) of the
                       Federal Deposit Insurance Act. 15 This section provides that if the
                       Deposit Insurance Fund incurs a material loss with respect to an
                       insured depository institution, the inspector general for the
                       appropriate federal banking agency is to prepare a report to the
                       agency that

                       •   ascertains why the institution’s problems resulted in a material
                           loss to the insurance fund;
                       •   reviews the agency’s supervision of the institution, including
                           implementation of the prompt corrective action (PCA) provisions
                           of section 38; and
                       •   makes recommendations for preventing any such loss in the
                           future.

                       At the time of ebank’s failure, on August 21, 2009, section 38(k)
                       defined a loss as material if it exceeded the greater of $25 million
                       or 2 percent of the institution’s total assets. We initiated a material
                       loss review of ebank based on the loss estimate by the Federal
                       Deposit Insurance Corporation (FDIC). As of March 31, 2011, FDIC
                       estimated that the loss to the Deposit Insurance Fund from ebank’s
                       failure would be $46.3 million. 16 FDIC also estimated that ebank’s
                       failure resulted in a loss of approximately $104,000 to its
                       Transaction Account Guarantee Program.

                       Our objectives were to determine the causes of ebank’s failure;
                       assess ebank’s supervision by the Office of Thrift Supervision
                       (OTS), including implementation of the PCA provisions of section
                       38; and make recommendations for preventing such a loss in the
                       future. To accomplish our review, we conducted fieldwork at OTS
                       headquarters in Washington, D.C., and at its Southeast Region
                       office in Atlanta, Georgia. We interviewed headquarters and field
                       office personnel. We also interviewed officials at FDIC’s Division of
                       Supervision and Consumer Protection regional office in Atlanta,
                       Georgia, and officials from FDIC’s Division of Resolutions and
                       Receiverships in Dallas, Texas. While in Atlanta, we reviewed

15
  12 U.S.C. § 1831o(k).
16
  The original loss estimate was $63 million at closing. FDIC decreased this amount to $46.3 million as
of March 31, 2011, based on revised estimates.



                       Material Loss Review of ebank (OIG-11-081)                             Page 14
Appendix 1
Objectives, Scope, and Methodology




selected ebank records in FDIC’s possession at Stearns Bank, N.A.,
the institution that purchased the majority of ebank’s assets after
the thrift was closed. We conducted our fieldwork from December
2009 through March 2010.

To assess the adequacy of OTS’s supervision of ebank, we
performed the following work:

•   We reviewed OTS supervisory files and records for ebank from
    2003 through 2009. We analyzed examination reports,
    supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OTS used to assess the thrift’s condition, and
    the regulatory action OTS used to compel thrift management to
    address deficient conditions. We also reviewed OTS’s report on
    its internal review of ebank’s failure. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.

•   We interviewed and discussed various aspects of OTS’s
    supervision of ebank with OTS officials, examiners, and
    attorneys to obtain their perspective on the thrift’s condition,
    the scope of the examinations, and supervisory actions taken.

•   We interviewed personnel with FDIC’s Division of Resolutions
    and Receiverships who were involved in the receivership and
    asset resolution process and personnel with FDIC’s Division of
    Supervision and Consumer Protection concerning FDIC’s role as
    backup regulator for ebank.

•   We interviewed several former ebank employees now employed
    by Stearns Bank concerning ebank’s lending practices and
    operational procedures.

•   We assessed OTS’s actions based on its internal guidance and
    the requirements of the Federal Deposit Insurance Act (12
    U.S.C. 1811 et seq.).




Material Loss Review of ebank (OIG-11-081)                    Page 15
Appendix 1
Objectives, Scope, and Methodology




We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of ebank (OIG-11-081)                  Page 16
Appendix 2
Background




History of ebank

ebank began operations as Commerce Bank in 1998, in Atlanta,
Georgia, to engage in retail banking, home mortgages, real estate
development, and consumer lending. Commerce Bank was wholly
owned by Southeast Commerce Holding Company. Commerce
Bank was renamed ebank in 1999, as part of a revised business
plan focused on Internet banking operations. The holding company
was renamed ebank.com, Inc., in 1999 and was subsequently
renamed ebank Financial Services, Inc., in 2003.

OTS Assessments Paid by ebank

OTS funds its operations in part through semiannual assessments
on thrifts. OTS determines each institution’s assessment by adding
together three components reflecting the size, condition, and
complexity of an institution. OTS computes the size component by
multiplying an institution’s total assets, as reported on its thrift
financial report, by the applicable assessment rate. The condition
component is a percentage of the size component and is imposed
on institutions that have a 3, 4, or 5 CAMELS composite rating.
OTS imposes a complexity component if (1) a thrift administers
more than $1 billion in trust assets; (2) the outstanding balance of
assets fully or partially covered by recourse obligations or direct
credit substitutes exceeds $1 billion, or (3) the thrift services over
$1 billion of loans for others. OTS calculates the complexity
component by multiplying set rates by the amounts by which a
thrift exceeds each threshold. Table 2 shows the assessments that
ebank paid to OTS from 2005 through 2009.




Material Loss Review of ebank (OIG-11-081)                    Page 17
Appendix 2
Background




Table 2: Assessments Paid by ebank to OTS 2005–2009
                            Examination
 Billing Period                Rating        Amount Paid
   1/1/2005–6/30/2005                3                   $28,068
  7/1/2005–12/31/2005                3                   $28,112
   1/1/2006–6/30/2006                3                   $34,974
  7/1/2006–12/31/2006                3                   $34,562
   1/1/2007–6/30/2007                3                   $34,395
  7/1/2007–12/31/2007                3                   $35,841
   1/1/2008–6/30/2008                3                   $36,717
  7/1/2008–12/31/2008                4                   $50,712
   1/1/2009–6/30/2009                4                   $49,990
  7/1/2009–12/31/2009                5                   $51,354
Source: OTS.


Number of OTS Staff Hours Spent Examining ebank

Table 3 shows the number of examination hours expended by OTS
on full-scope and limited-scope examinations from 2003 through
2009.

Table 3: Number of OTS Staff Hours Spent on Examining ebank,
        2003–2009
                                                   Examination
 Examination Start Date and Type                        Hours
 4/30/2003 full-scope                                     752
 7/13/2004 full-scope                                   1,244
 10/11/2005 full-scope                                    920
 12/29/2006 full-scope                                    962
 12/10/2007 limited-scope                                 184
 3/3/2008    full-scope                                 1,470
 10/6/2008 limited-scope                                    78
 7/6/2009    full-scope                                   864
Source: OTS, Examination Activity Hours Detail Report.




Material Loss Review of ebank (OIG-11-081)                         Page 18
Appendix 3
Management Response




Material Loss Review of ebank (OIG-11-081)   Page 19
Appendix 3
Management Response




Material Loss Review of ebank (OIG-11-081)   Page 20
Appendix 4
Major Contributors To This Report




Boston Audit Office

Kenneth Dion, Audit Manager
Kenneth O’Loughlin, Auditor-in-Charge
Alex Taubinger, Auditor
Maryann Costello, Auditor

Washington, DC

Gerald Kelly, Referencer




Material Loss Review of ebank (OIG-11-081)   Page 21
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of ebank (OIG-11-081)               Page 22
